CERTIFICATE OF SERVICE
NO. TBD
Jason Fyk
Petitioner,
v.
Facebook, Inc.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JASON
FYK PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following address:

William S. Hicks
Keker, Van Nest & Peters, LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
whicks@keker.com
Counsel for Facebook, Inc.
.

Lucas DeDeus

November 2, 2020

SCP Tracking: Smikun-650 From Road-Cover White

